                                  INSPECTION




 ACQUISITION SERVICES
 DIRECTORATE—SIERRA VISTA




Report No.: ER-IS-NBC-0003-2011       July 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                              JUL· 14 2011
Memorandum

To:            Secretary Salazar

From:          Mary L.  Kendal~ /" - ~dlJf
               Acting Inspecto;   6e~~~I{
Subject:       Inspection - Acquisition Service Directorate - Sierra Vista Organization
               Report No. ER-IS-NBC-0003-2011

        This memorandum transmits the results of our inspection of the Acquisition Services
Directorate (AQD)-Sierra Vista organization. We reviewed the types and amounts of contracts
negotiated and awarded through AQD-Sierra Vista to determine the benefits and risks that this
office poses to the U.S . Department of the Interior (DOl).

        We found that AQD-Sierra Vista provides very limited services to DOL Only about 2.4
percent of the total contract actions awarded in fiscal years 2009 and 2010 applied to DOl
purchases. While AQD-Sierra Vista makes most of its contract actions on behalf of DoD, its
actions put DOl at risk. Specifically, AQD-Sierra Vista continues to accept requests for
purchases and their requisite funds close to the end of the fiscal year, increasing the risk for
improper spending. In addition, AQD-Sierra Vista does not adequately perform price
reasonableness determinations when awarding contracts or effectively monitor subcontract
limitations when warranted.

        We recommend that DOl carefully consider whether retaining AQD-Sierra Vista as an
interagency contracting office is in the best interest of DOL If DOl decides to retain AQD-Sierra
Vista, we make additional recommendations to improve the value of this contracting office and
to improve the operations of AQD-Sierra Vista.

       We respectfully request a written response within 30 days. The response should provide
information detailing actions taken or planned to address the report recommendations, officials
involved, and target dates for implementation. Please address your response to:

               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               MS 4428 - MIB
               1849 C Street, NW.
               Washington, DC 20240




                               Office of Inspector General I Washington, DC
      If you have any questions regarding this report, please do not hesitate to call me at 202-
208-5745.




                                                2
Table of Contents
Results In Brief ...................................................................................................... 1
Introduction ............................................................................................................ 3
Objective ............................................................................................................... 3
Background ............................................................................................................ 3
   Working Capital Fund ........................................................................................ 3
   Interior Franchise Fund ...................................................................................... 3
   Historical Issues At AQD-Sierra Vista .............................................................. 3
   Interagency Contracting Concerns ..................................................................... 5
Findings .................................................................................................................. 6
AQD-Sierra Vista Provides Limited Services to DOI ............................................ 6
Continued Risk to DOI By Providing Goods and Services on Behalf of DoD ..... 6
   Acceptance of Late Purchase Requests and Accompanying Funds.................... 7
   Poor Monitoring of 8(a) Contracts ...................................................................... 8
   Inadquate Price Reasonableness Considerations ................................................ 8
Potential Risks Found During Review of DOI Contracts ...................................... 8
Conclusion and Recommendations ...................................................................... 10
Appendix 1: Scope, Methodology, and Prior Coverage ....................................... 11
Results in Brief
The Acquisition Services Directorate (AQD)-Sierra Vista has had a long and
troubled history at the Department of the Interior (DOI). It has been the subject of
numerous reports and articles ranging from those produced by Government
entities (DOI Office of Inspector General, Department of Defense Office of
Inspector General, and the Government Accountability Office) to media
organizations (Washington Post). These reports and articles analyze both the
benefits and risks that AQD-Sierra Vista poses to DOI.

Continued media attention regarding the relationship between DOI and AQD-
Sierra Vista caused us to focus this inspection on the types and number of
contracts processed through this contracting office. We found that DOI assumes
most of the risk associated with operating an interagency contracting office but
receives little benefit in return.

As a result, we recommend that DOI determine whether the benefits associated
with continuing interagency contracting activities at AQD-Sierra Vista are worth
the associated risks. Should DOI determine to accept these risks, we recommend
that DOI consider the additional recommendations we offer to improve the value
of the contracting office and its operations.




                                                                                   1
Introduction
Objective
The objective of this inspection was to review the types and amounts of contracts
negotiated and awarded through the Acquisition Services Directorate-Sierra Vista
(AQD-Sierra Vista) and to determine the benefits and risks that this office poses
to the Department of the Interior (DOI).

Background
DOI provides acquisition services for itself, as well as for other Federal agencies,
through the National Business Center (NBC). Two of DOI’s largest service
providers are AQD-Sierra Vista and AQD-Herndon. These two services operate
under separate authorities. Sierra Vista operates under DOI’s Working Capital
Fund and AQD-Herndon operates under the Interior Franchise Fund.

Working Capital Fund
The Working Capital Fund, created through 43 U.S.C. §1467, authorizes DOI to
establish certain services, including acquisition services, that the Secretary
determined could be performed more advantageously on a reimbursable basis. An
agency operating as a working capital fund and providing services must recover
its full cost. It is not allowed to make a profit or retain any excess funds derived
from its services.

Interior Franchise Fund
The Government Management and Reform Act of 1994 and amendments in
Public Law 110-161 established the Interior Franchise Fund to provide DOI and
other Federal agencies with common administrative support. The Interior
Franchise Fund allows DOI to procure services (both for itself and other Federal
agencies) that could be provided more efficiently through this fund than by other
competitive means. Fee-for-service contracting offices operating under this fund
can retain up to four percent of their total annual income for acquisition of capital
equipment and for improvement and implementation of Departmental support
systems.

Historical Issues at AQD-Sierra Vista
In past years, interagency contracting at AQD-Sierra Vista has been the subject of
multiple audit reports issued by the DOI Office of Inspector General (DOI OIG),
the Department of Defense Office of Inspector General (DoD IG), and the
Government Accountability Office (GAO). All have uncovered a history of
problems at AQD-Sierra Vista. Media outlets have called further attention to audit
findings once the Government released the reports to the general public.
Specifically, GAO and OIG reports, as well as national news articles, criticized


                                                                                    2
the components of AQD-Sierra Vista’s interagency contracting practices that
involve monitoring, funding, and competition of contracts. For example:

   •   The April 2005 GAO report titled “Interagency Contracting: Problems
       with DoD’s and Interior’s Orders to Support Military Operations” (GAO-
       05-201) identified that weak internal controls and inadequate training
       permitted contracting personnel at AQD-Sierra Vista to issue orders
       outside the scope of an underlying contract, thus violating competition
       rules. In this same report, GAO also highlighted issues with Sierra Vista’s
       ordering procedures and contract monitoring standards.

   •   The December 2006 Washington Post article titled “Interior, Pentagon
       Faulted in Audits” reported that DoD paid both AQD-Herndon (formerly
       known as GovWorks) and AQD-Sierra Vista to “arrange for Pentagon
       purchases totaling $1.7 billion that resulted in excessive fees and tens of
       millions of dollars in waste. Additionally, more than half of the contracts
       examined were awarded without competition or without checks to
       determine that the prices were reasonable.” The Washington Post’s
       findings correspond with the findings of DoD IG Report No. D-2007-044.

   •   The January 2007 DoD IG report titled “FY 2005 DoD Purchases Made
       Through the Department of the Interior” (D-2007-044) reported that
       AQD-Sierra Vista contracting officials did not adequately document and
       support price reasonableness decisions, did not adequately review
       contractor proposals, and did not adequately perform legal reviews. This
       led to suspension of all of the contracting officers’ warrants.

   •   The February 2008 DOI IG report titled “Audit of FY2006 and FY2007
       Department of Defense Purchases Made Through the Department of the
       Interior” (Y-IN-MOA-0001-2007) reported that AQD-Sierra Vista
       procured products without evidence of sufficient bona fide need. This
       occurred because contracting officials accepted funds from clients late in
       the fiscal year and expended these funds even after they expired.

   •   The November 2010 Washington Post article titled “Alaska native status
       gave tiny, inexperienced firm a $250 million Army contract” reported that
       United Solutions and Services LLC (US2), a small Government contractor
       co-owned by an Alaska native corporation, was awarded a Department of
       the Army contract in 2008 that was worth as much as $375 million. US2,
       however, was too small to do all the work itself. With the Army's
       knowledge, the firm subcontracted the majority of the awarded contract to
       more established companies. As a result, the contract with US2 violated
       laws applicable to contracts awarded based on a firm’s status as an Alaska
       native corporation requiring the firm to agree to do at least 50 percent of
       the work itself. AQD-Sierra Vista was the contracting office that managed
       this contract for the Army.

                                                                                    3
Interagency Contracting Concerns
The practice of interagency contracting has been scrutinized for several years.
GAO annually has placed this form of contracting on its high risk list since 2005.
To further perpetuate the concern with interagency contracting, a newly released
GAO report cites a risk of unintended duplication and inefficiency from the way
agencies have created interagency and agency-wide contracts. The GAO report
suggests that “requiring business case analyses for new multi-agency and agency-
wide contracts and ensuring agencies have access to up-to-date and accurate data
on the available contracts, will promote the efficient use of interagency and
agency-wide contracting.” The report also states that by reducing the costs of
duplicative contract awards, the Government will be able to “better leverage its
purchasing power when buying commercial goods and services.”




                                                                                 4
Findings
AQD-Sierra Vista provides only a limited benefit to DOI while continuing to put
DOI at risk through its purchases for DoD and DOI. Specifically, AQD-Sierra
Vista continues to accept requests for purchases and the requisite funds close to
the end of the fiscal year. Also, it does not effectively monitor subcontract
limitations and performs inadequate price reasonableness determinations.

AQD-Sierra Vista Provides Limited Services to DOI
AQD-Sierra Vista procures goods and services on behalf of DOI and other
Federal agencies on a reimbursable basis without authority to earn a profit since it
operates under the Working Capital Fund. Using the Federal Procurement and
Data System, the official Government-wide contract tracking system, we
determined that AQD-Sierra Vista issued 597 contract actions totaling
$438,292,318 in fiscal year (FY) 2009. In FY 2010, it issued 640 contract actions
totaling $498,697,595. DOI transactions, however, accounted for only
approximately 2.4 percent of the total contract actions awarded in FY 2009 and
FY 2010 (Figure 1). Of the limited number of contract actions provided on behalf
of DOI, AQD-Sierra Vista’s largest clients were the Office of the Chief
Information Officer and Sierra Vista itself.

       Percentage of AQD-Sierra Vista Contract Actions
       by Agency for FY 2009 and FY 2010
            100%   91.61%
                                              87.53%
            90%
            80%
            70%
                                                                              DoD
            60%
                                                                              Other
            50%
                                                                              DOI
            40%
            30%
            20%
                            5.92%                   10.10%
            10%                     2.47%                     2.37%
             0%
                            FY09                       FY10

Figure 1.

Continued Risk to DOI by Procuring Goods and
Services on Behalf of DoD
As part of a Congressionally mandated audit, DOI OIG and DoD IG jointly
reviewed 28 DoD contracts issued in FY 2010 through AQD-Sierra Vista. We
found that although improvements had been made, significant weaknesses still

                                                                                      5
exist that continue to place DOI at risk of improper purchases and violations of
fiscal law.

Acceptance of Late Purchase Requests and Accompanying Funds
AQD-Sierra Vista continues to accept requests for purchases and the requisite
accompanying funds from its customers late in the fiscal year. This practice puts
AQD-Sierra Vista at risk of issuing contracts improperly, of potentially violating
the bona fide needs rule, and of expending expired funds. The bona fide needs
rule, as coded in 31 U.S.C. § 1502(a), states that a fixed term fund “is available
only for payment of expenses properly incurred during the period of availability
or to complete contracts properly made within that period.”

We identified five potential bona fide needs rule violations that occurred because
AQD-Sierra Vista awarded contracts at the end of the fiscal year, making it
difficult for performance to begin during the fund’s period of availability as
required by DoD’s Financial Management Regulations. These regulations state
that “the performance of severable services must begin during the funds’ period of
availability and may not exceed one year.” Invoices for these five contracts show
that work did not begin and the contractors did not charge any costs for
performance on these contracts until the next fiscal year.

While DoD contracting offices have incorporated cut-off dates in their policy to
avoid these situations, AQD-Sierra Vista has not. DoD components recognize that
AQD-Sierra Vista accepts late purchase requests and the requisite accompanying
funds. They include language in their best interest determinations certifying that
non-DoD contract services are needed due to lapsing DoD internal processing
(cut-off) dates. DoD components forward contracts requested after these DoD
contracting cut-off dates to AQD-Sierra Vista for processing, circumventing DoD
cut-off policy. The following excerpt from the “Certification on Proper Use of
Non-DoD Contracts-Assisted Acquisition” provided by the Department of the
Army to AQD-Sierra Vista provides insight into DoD’s use of interagency
acquisitions.




                                                                                     6
Figure 2. The Army justified using AQD-Sierra Vista because its own contracting offices
would not cover year-end contract requests.

Poor Monitoring of 8(a) Contracts
We also found that the contracting officer (CO) did not effectively monitor the
statutorily required subcontracting limitations on an 8(a) service contract. The
subcontracting limitation requires the contractor to satisfy at least 50 percent of
the personnel-based contract costs with its own employees. The Small Business
Administration (SBA) participation agreement requires the CO to monitor and
enforce that provision. Included in our review was a sole source contract to an
Alaskan native corporation, United Services and Solutions LLC (US2). Despite
receiving reports showing that US2 has been non-compliant with 8(a)
subcontracting limitations for more than 2 1/2 years, the CO did not take effective
actions to either correct the problem or terminate the contract for non-compliance.
Further, the CO accepted that a category of “Other Direct Costs” did not include
labor, when the types of services appeared to be labor intensive. Therefore, US2
was likely out of compliance by an even greater amount than was reported.

The CO we interviewed regarding this contract told us that the contractor on an
indefinite-quantity, indefinite-delivery (IDIQ) contract, as is the case with US2,
has the life of the contract to comply with the subcontracting limit. To the
contrary, however, the Code of Federal Regulations clearly states that “in order to
ensure that the required percentage of costs on an indefinite quantity 8(a) award is
performed by the Participant, the Participant must demonstrate semiannually that
it has performed the required percentage to that date.” It goes on to say that “the
Participant must perform 50 percent of the applicable costs for the combined total
of all task orders issued to date at six month intervals.” Therefore, the CO was
incorrect to assume that the contractor has the lifetime of the contract to meet the
50 percent rule.

Inadequate Price Reasonableness Determinations
We found inadequate price reasonableness determinations in 15 of the 27
contracts reviewed. 1 Most were inadequate because the CO relied on unsupported
and insufficient independent Government cost estimates, along with weak cost
proposal evaluations performed by DoD to determine whether the price was fair
and reasonable. In each case, AQD-Sierra Vista COs received only one offer,
making a thorough price reasonableness determination even more important.

Potential Risks Found During Review of DOI
Contracts
To ensure AQD-Sierra Vista properly procured goods and services on behalf of
DOI, we reviewed 10 contracts from FY 2009 and FY 2010 for price
reasonableness, competition, funding and monitoring. Although we did not find
any substantial issues with price reasonableness, competition or funding, we did

1
   We did not review one contract in our sample for price reasonableness because the contract action involved
the addition of funding and therefore was not required.

                                                                                                           7
find issues with monitoring. Specifically, we became aware of monitoring issues
with AQD-Sierra Vista’s sole-sourced 8(a) contracts to Alaska native
corporations on behalf of DOI.

Interviews with several AQD-Sierra Vista COs revealed confusion over the
division of responsibilities between the CO and SBA. After reviewing the
delegation of authority between SBA and DOI, we found that the responsibilities
rest with the CO, including monitoring the Limitation in Subcontracting Rule and
termination, if necessary.

Our recently conducted DoD contracts review raised concern that DOI may be at
risk of further contract scrutiny if these contracts are not properly monitored.




                                                                                   8
Conclusion and Recommendations
Conclusion
AQD-Sierra Vista performs only very limited work on DOI’s behalf, but DOI
assumes all the risks associated with operating an interagency contracting office.
Considering the low number of DOI-related transactions that AQD-Sierra Vista
conducts and the simplicity of the contracts it awards for DOI customers,
management should consider whether AQD-Sierra Vista could be restructured or
put to more advantageous use elsewhere in DOI.

Recommendations
We recommend that DOI:

   1. Determine whether the risks associated with the interagency contracting
      activities at AQD-Sierra Vista are worth continuing to accept them.

If DOI chooses to accept the risks associated with AQD-Sierra Vista, then DOI
should:

   2. Determine whether moving the AQD-Sierra Vista organization into the
      Interior Franchise Fund would increase the monetary benefit to DOI
      without losing the customer base.

   3. Implement reasonable cut-off dates to ensure AQD-Sierra Vista has
      enough time to properly award contracts.

   4.   Standardize procedures for contracting officers, contracting specialists,
        and contracting officer representatives monitoring 8(a) awards,
        specifically compliance with the Limitation of Subcontracting rule.




                                                                                     9
Appendix 1: Scope, Methodology, and
Prior Coverage
Scope
We performed our inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency “Quality Standards for Inspections and
Evaluations.” The inspection focused on DOI NBC’s AQD-Sierra Vista Branch.
We believe that the work performed provides a reasonable basis for our
conclusions and recommendations.

Methodology
To accomplish our objectives, we interviewed officials, including the Associate
Director of AQD, as well as management and contracting personnel at AQD-
Sierra Vista. We reviewed a judgmental sample of DOI contracts awarded in FY
2009 and 2010 at AQD-Sierra Vista to determine whether or not contracting
personnel adequately conducted price reasonableness analysis, competed
contracts, obtained and managed funding for contracts, and monitored contracts.
We also obtained data pertaining to contracting at AQD-Sierra Vista for FY 2009
and FY 2010 from the Federal Procurement Data System. Further, we
incorporated our audit findings from our joint DOI/DoD audit. Fieldwork for our
inspection was performed from January 19 to March 10, 2011.

We also reviewed prior DOI OIG, DoD IG, and GAO reports to evaluate past
findings related to contracting issues at AQD-Sierra Vista.

Prior Coverage
The following reports were reviewed in order to evaluate past findings related to
contracting issues at AQD-Sierra Vista:

DOI OIG
C-EV-MOA-0016-2005 (Fee-for-Service Organizations)
DOI and other organizations providing these services have failed to follow
procurement laws and regulations, which resulted in significant consequences for
both the providers and recipients of those services. Without the checks and
balances provided by effective internal controls, the “risk taking” and “out-of-the-
box” thinking advertised by NBC and encouraged by fee-for-service
organizations could result in risks that may outweigh any benefits derived from
these activities. In the absence of significant, quantifiable benefits, it is
questionable whether the overall benefits of these activities outweigh the risks
brought to management's attention in the past as a result of previous and ongoing
audits.

Y-IN-MOA-0001-2007 (Audit of FY 2006 and FY 2007 Department of Defense
Purchases Made Through the Department of the Interior)

                                                                                 10
The two main issues that auditors identified with AQD-Sierra Vista contracting
practices were lack of bona fide need and lack of communication.

Bona Fide Need: AQD-Sierra Vista procured products without evidence of
sufficient bona fide need.

DoD IG
D-2007-044 (FY 2005 DoD Purchases Made Through the Department of
 the Interior)
Auditors identified the following key issues with AQD-Sierra Vista’s contracting
practices:

Low-Dollar Purchases: Contracting officials awarded purchases from Federal
supply schedules. DoD paid DOI $22.8 million in fees; this money could have
been used to increase the DoD acquisition workforce or other DoD priority needs.

Section 8(a) Awards: Although AQD-Sierra Vista contracting officials did not
violate any regulations, they could have competed certain 8(a) contracts among
Section 8(a) companies, rather than awarding without competition.

Price reasonableness: AQD-Sierra Vista contracting officials did not adequately
document and support price reasonableness decisions for 15 of 20 contracts
reviewed.

Review of Contractor Proposals: Of the 15 AQD-Sierra Vista contracts for
services, 11 contained incomplete reviews of contractor proposals.

Legal Reviews: DOI did not perform legal reviews for 18 of 49 contracts
reviewed, valued in excess of $500,000. These included nine Federal supply
schedule orders and nine indefinite-delivery, indefinite-quantity orders valued at
more than $500,000. At least 7 of these 18 contracts belonged to
AQD-Sierra Vista.

GAO
GAO-05-201 (Problems with DoD's and Interior's Orders to Support Military
Operations)
This audit report focused on AQD-Sierra Vista’s procurement of interrogation
services from CACI International Inc. on behalf of DoD. GAO auditors identified
the following problems with AQD-Sierra Vista’s contracting practices:

Tasks Orders Were Out of Scope of Underlying Contract: Interior IG and GSA
determined that 10 of the 11 task orders issued by Interior to CACI for
interrogation and other services in Iraq were outside the scope of the underlying
GSA information technology contract.




                                                                                    11
DoD Task Order Competition Requirements Were Not Followed: Interior
contracting officials did not comply with requirements contained in Section 803
of the National Defense Authorization Act for Fiscal Year 2002.

Ordering Procedures Meant to Ensure Best Value Were Not Followed: Interior’s
contracting office did not comply with required Blanket Purchase Agreement
(BPA) procedures. Contracting officials failed to seek discounts from CACI’s
established GSA contract prices, did not conduct required annual reviews of
BPAs, and improperly expanded the scope of services by adding several items
and services to the BPAs.

Contractor's Performance Was Not Adequately Monitored: Interior’s contracting
officials never verified that the Army personnel serving as contracting officer
representatives had the appropriate training.

Contractor Played a Role in the Procurement Process Normally Performed by
Government Personnel: Interior officials abdicated their contracting
responsibilities to a large degree.

Lack of Management Oversight: Problems in the way Interior’s contracting office
carried out its responsibilities in issuing orders were not detected or addressed by
management.

Lack of Adequate Training: Training was not monitored or enforced by managers.
Consequently, certain requirements were not understood or followed by
contracting personnel.




                                                                                  12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
